No.

In The

Supreme Court of the United States
October Term 2020

TRUMAINE MULLER,
Petitioner,

UNITED STATES OF AMERICA,

Respondent,

PROOF OF SERVICE

I, William M. Kent, do declare that on this date, September 23, 2020,

pursuant to Supreme Court Rules 29.3 and 29.4, I have served the attached
PETITION FOR WRIT OF CERTIORARI with attached Motion to Proceed In

Forma Pauperis on each party to the above proceeding, or that party's counsel, and

on every other person required to be served by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them

and with first-class postage prepaid.
Trumaine Muller
70521-018

USP McCreaiy
P. O. Box 3000

Pine Knot, KY 42635
Office of the Solicitor General
Room 5614

Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(supremectbriefs@usdoj.gov)

'AFFIANT

